Before the Committee on Appropriations
Subcommittee on Transportation, Treasury and
Independent Agencies
U. S. House of Representatives


For Release on Delivery
Expected at
10:00 a.m. EST
                          Appropriations Issues
                          for the Department of
Thursday
March 13, 2003
CC-2003-080

                          Transportation FY 2004
                          Budget


                          Statement of
                          The Honorable Kenneth M. Mead
                          Inspector General
                          U.S. Department of Transportation
Mr. Chairman and Members of the Subcommittee:


Thank you for inviting us to testify today as the Subcommittee begins its
deliberations on the fiscal year (FY) 2004 appropriation for the Department of
Transportation (DOT). At the outset, I want to express my appreciation for the
support of Secretary Mineta, the DOT leadership, and the Congress for the work
of the Office of Inspector General.


Over the past year, much of the focus at DOT has understandably been on
security, and there are very notable achievements in this regard, particularly in the
aviation arena.   With the transfer of the United States Coast Guard and the
Transportation Security Administration (TSA) to the newly created Department of
Homeland Security (DHS), the coming year presents DOT with a renewed
opportunity to focus on its core missions of transportation safety and mobility.


DOT must do this, however, in an extremely challenging budgeting environment.
Revenues in the form of taxes and user fees are down sharply, and we have
entered a period of deficit spending. The Congressional Budget Office recently
estimated that the deficit will be $246 billion in FY 2003, significantly higher than
projections made just 3 months ago. At the same time, the Government is faced
with new security costs, a potential war in Iraq, and growing demands for
resources for existing programs including transportation.


The budget situation this year is especially difficult for DOT, since it relies so
heavily on trust funds for financing. DOT trust fund revenues are down markedly.
There are also increased program needs in all modes—from solving Amtrak’s
financial crisis to funding highway and aviation safety programs to funding
construction that will increase aviation, highways, and transit capacity. This is
occurring against the backdrop of the reauthorizations of three major DOT
programs, the Aviation Investment and Reform Act for the 21st Century (AIR-21),
the Transportation Equity Act for the 21st Century (TEA-21), and Amtrak.
Funding levels for these programs are obviously a policy call for Congress. In our
opinion, there are opportunities to stretch existing Federal dollars by looking at
key cost drivers in operations, acquisitions, and infrastructure investments to
identify where costs can be contained or reduced, programs can be run more
effectively and efficiently, and fraudulent activities can be detected and prevented.


Maintaining safety in all modes of transportation is an overarching challenge for
all DOT Operating Administrations and a key strategic goal for the Department.
The specific challenges in this area include reducing the over 40,000 fatalities and
millions of injuries on our highways each year. Although motor carriers are only
4 percent of the vehicles on the road, they account for a disproportionate number
of deaths each year. Commercial aviation is very safe, but in FY 2002, on average
there was one serious runway incursion (that barely avoided or had significant
potential for collision on the ground) every 10 days and one serious operational
error (near collision in the air) every 8 days. The Federal Aviation Administration
(FAA) has made progress in addressing this area, but it needs to continue to follow
through on corrective action plans. In addition, FAA must remain vigilant in its
oversight of air carriers to sustain the high level of safety during times when
airlines are in financial distress. FAA has recognized the need and has taken steps
to heighten safety surveillance of air carriers in distress. FAA also needs to pay
close attention to the level of oversight it provides for repair stations—air carriers
are turning to these facilities more and more as a way to reduce costs.


Much of the airline industry is in a precarious financial situation. With declines in
revenue that are likely to persist, the major network carriers have found
themselves with unsustainable cost structures.       Self-help is the difficult but
necessary solution in this restructuring effort. The Congress may find that the


                                          2
financial condition of the airline industry results in additional requests for loan
guarantees from the Airline Stabilization Board. Should the Board determine that
an airline in financial straits has restructured its business, and its business plans are
realistic, a loan guarantee that finances a carrier’s exit from financial distress may
be a prudent, short-term, market intervention that will likely provide long-term
benefits to the public.


Ensuring air service to small communities is another potential cost driver that
bears mentioning at this time. Small communities have a keen interest in the
successful restructuring of the large network carriers. It is these carriers who
connect small-hub and non-hub communities to the aviation system. In the last
3 years, from March 2000 to March 2003, non-hub airports lost 19 percent of their
commercial air service as measured by scheduled passenger seats, and those in the
Northeast and Midwest have lost approximately one-third of their service.
Maintenance of service in these markets will be most successful where the
restructuring of the network carriers is most successful. However, we know the
funding levels for the Essential Air Service Program, which many small
communities rely on to sustain limited air service, will be an important matter for
the Committee’s consideration this year.


Finally, DOT’s central transportation safety and mobility missions clearly must
interface with DHS’s security responsibilities. This will require close interaction
between the two Departments to strike an appropriate balance in implementing,
regulating, funding, and overseeing programs that benefit the traveling public. A
pending issue is the next phase of explosives detection system (EDS) deployment.
Thus far, nearly all EDS equipment has been lobby-installed. TSA’s planned next
step (integrating the EDS equipment into airport baggage systems) is by far the
most costly aspect of full implementation. We have seen estimates of those efforts
at over $3 billion. A key question is who will pay the cost of integrating EDS into


                                           3
airport baggage systems at the Nation's largest airports, which will require
structural changes at most airports.


Funding DOT Programs in Light of Steep Declines in Trust Fund Revenues.
DOT’s total FY 2004 budget request is $54.3 billion, of which $46.2 billion
(85 percent) is from DOT trust funds and $8.1 billion (15 percent) is from the
General Fund. Historically, the majority of DOT's budget has been covered by the
Aviation and Highway Trust Funds. Revenue projections for both of these trust
funds are down.      The options for compensating for these declines are not
attractive: raise taxes on users, limit investments in our congested transportation
systems, shift the burden for these expenditures to state and local governments,
and/or tap more of the General Fund just at the time when deficits have reappeared
and the competition for these funds is rapidly increasing.


Aviation Trust Fund.     Projected tax receipts to the Aviation Trust Fund for
FY 2004 have dropped from approximately $12.6 billion estimated in April 2001
to about $10.2 billion estimated in February 2003. Over the next 4 years, Aviation
Trust Fund tax revenues are expected to be about $10 billion less than projections
made in April 2001. Although Trust Fund projections are down for next year,
FAA’s spending request is not, increasing from $13.6 billion this year to
$14.0 billion next year. If this $3.8 billion gap between Trust Fund revenues and
FAA’s budget ($10.2 billion to $14.0 billion) is financed by the General Fund, it
would represent a rough doubling of such spending compared to recent years.




                                         4
                               FAA: Decline in Estimated Trust Fund Revenues
                                         Compared to FAA's Budget
                      $16.0                                                     $14.0       $14.2
                                                            $13.8     $13.6
                      $14.0                     $12.6
                      $12.0
      $ in Billions



                                $9.8    $10.1
                      $10.0
                       $8.0                   $10.4      $11.2     $11.9      $12.6      $13.3
                            $10.4     $9.7
                       $6.0                                              $9.4      $10.2       $10.9
                            Actual   Actual                   $9.0
                       $4.0                         $9.1
                       $2.0                        Actual
                       $0.0
                             FY 1999 FY 2000 FY 2001 FY 2002 FY 2003 FY 2004 FY 2005

                                 April 2001 TF Estimate   February 2003 TF Estimate          FAA's Budget




Although we have heard suggestions that this gap could be closed by increasing
taxes or fees on airlines and air passengers, we urge extreme caution in this area.
Taxes and fees are already high. Currently, nearly 26 percent of a $100 non-stop
airline ticket goes to taxes and fees. Any further increases are likely to reduce
airline revenues, given the weak demand environment and will further threaten the
financial health of the industry.


Highway Trust Fund. The fiscal health of the Highway Trust Fund is important to
the Federal Highway Administration (FHWA), the Federal Motor Carrier Safety
Administration (FMCSA), the Federal Transit Administration (FTA), and the
National Highway Traffic Safety Administration (NHTSA) because they derive
most or all of their funding from the Highway Trust Fund.1 In recent years, tax
receipts fell from $39.3 billion in FY 1999 to $31.5 billion in FY 2001, a
20 percent decline. Current estimates show that between FY 2003 and FY 2006,
Highway Trust Fund tax revenues will be about $18 billion less than projections
made in April 2001. Tax receipts are not expected to return to the FY 1999 level
until FY 2008. For FY 2004, the President’s budget requests $37.1 billion from

1
    These amounts are 100 percent for FHWA and FMCSA, 82.1 percent for FTA, and 81.0 percent for NHTSA.


                                                          5
the Highway Trust Fund, $2.8 billion more than anticipated FY 2004 receipts of
$34.3 billion.



                                     Actual and Projected Highway Trust Fund Tax Revenue
  Billions                                 Includes Highway and Transit Accounts
                                                     (FY 1999 - FY 2006)
   $45.00
                $39.30                                                                                             $40.87
               (Actual)*                                                               $38.73        $39.82
   $40.00
                                 $34.97                                   $37.67                                            $36.52
                                (Actual)*                                                                 $35.34
                                                           $32.60                           $34.27
   $35.00                                    $31.47                           $32.82
                                                          (Actual)*
                                            (Actual)*
   $30.00

   $25.00

   $20.00

   $15.00

   $10.00

    $5.00

    $0.00
                FY 1999          FY 2000     FY 2001       FY 2002        FY 2003      FY 2004       FY 2005       FY 2006


   * Actual Taken From President's                      Projected in April 2001 President's Budget Est.
        Budget (FY 01 - FY 04)                          Projected in February 2003 President's Budget Est.




These decreased projections mean that highway and transit programs will see
continuing constraints on their ability to improve mobility, safety, and economic
growth unless taxes are raised, a greater portion of the financing burden is shared
by state and local governments, or greater reliance is placed on the General Fund
to supplement Trust Fund receipts. As with aviation taxes, the timing is not
auspicious for a tax increase this year, since gas prices have risen to $2 a gallon in
some locations.


As for state and local governments, their revenues are down as well because of
continuing weakness in economic growth and in the transportation sector in
particular. Because these governments generally must balance their budgets on an


                                                                      6
annual basis, they are already faced with potential tax increases and/or significant
budget cuts in existing programs and are unlikely to be able to pick up a
significantly increased share of the Nation’s transportation costs.


As Congress and the Department move this year to reauthorize highway, aviation,
and intercity passenger rail programs, tough decisions will have to be made by
Congress as to what funding levels for individual programs are sustainable within
this financial picture. When we look at DOT’s budget, there are several actions
that can be taken to operate more efficiently and effectively within this
environment. These actions include reducing cost growth by controlling the cost
drivers underlying that growth; leveraging Federal expenditures; and reducing
fraud, waste, and abuse.


Federal Aviation Administration.        For FY 2004, FAA’s budget request is
$14 billion, which is 26 percent of DOT’s budget, representing a 3 percent
increase above the FY 2003 appropriations of $13.6 billion. FAA’s budget request
exceeds projected Aviation Trust Fund revenues in FY 2004 by over $3 billion.
Assuming no new taxes or fees, this shortfall will have to be made up either by
drawing down the uncommitted balance of the Trust Fund or tapping the General
Fund.


In 1996, Congress acted to make FAA a performance-based organization by
giving the agency two powerful tools–personnel reform and acquisition reform.
Congress also directed FAA to develop an effective cost accounting system. The
expectation was that by relieving the agency from Government rules, FAA would
operate more like a business. That is, services would be provided to users cost
effectively, and air traffic control modernization programs would be delivered
approximately on time and within budget.



                                          7
Seven years later, we do not see sufficient progress toward achieving those
outcomes. FAA’s budget has grown from $8.2 billion in FY 1996 to $14 billion in
FY 2004−an increase of $5.8 billion, or over 70 percent. About 33 percent of this
increase was a result of higher airport funding, and about 15 percent was a result
of increases in FAA’s modernization budget, but the largest portion of this
increase (52 percent) was attributable to FAA’s operating budget. During this
period, we have also seen large cost overruns and schedule slips in FAA’s major
acquisitions.    Continued growth of that magnitude is unsustainable, given the
multibillion-dollar declines in projected Aviation Trust Fund receipts, and greater
dependence of FAA on the General Fund.


• To date, the most visible results of personnel reform are increased workforce
   costs. While, there has been improved labor/management relations with
   controllers (FAA’s largest workforce), FAA’s operating costs, which are
   primarily payroll, have increased by $3 billion, going from $4.6 billion in
   FY 1996 to $7.6 billion in FY 2004—an increase of over 65 percent. Much of
   that increase has been a result of salary increases negotiated under personnel
   reform. The new pay system for controllers was a significant cost driver.
   Between 1998 (when the new system was implemented) and 2003, the average
   base pay for controllers has increased 47 percent. This compares to an average
   salary increase for all other FAA employees during the same period of about
   32 percent.     Although linking pay and performance was a key tenet of
   personnel reform, only about 36 percent of FAA employees receive pay
   increases based on individual performance. The remainder of FAA employees
   receives largely automatic pay increases.


   We also found that there are somewhere between 1,000 and 1,500 side bar
   agreements or Memorandums of Understanding (MOUs) that FAA managers
   entered into. Many serve legitimate purposes and are needed, but some MOUs

                                        8
   increase personnel costs significantly. However, FAA management does not
   know the exact number or nature of these agreements, there are no established
   procedures for approving MOUs, and their cost impact on the budget has not
   been analyzed. We briefed the FAA Administrator on our concerns regarding
   MOUs, and we are working with the Administrator and her staff to address this
   issue. The procedures for approving MOUs and understanding their fiscal
   impact are important matters to resolve as FAA deploys new technologies to
   field facilities.


• In terms of acquisition reform, results have been mixed—contracts are
   awarded more expeditiously, and FAA’s “build a little, test a little” approach
   has clearly avoided failures on the scale of the multibillion-dollar Advanced
   Automation System acquisition during the 1990’s. But the bottom line is that
   significant schedule slips for major air traffic control acquisitions and
   substantial cost growth are all too common. Five major acquisitions, largely
   managed since FAA was granted acquisition reform, have experienced cost
   growth of over $3 billion (or the equivalent of one year’s budget for all
   modernization programs) and schedule slips of 3 to 5 years. Problems with
   cost growth, schedule slips, and performance shortfalls have serious
   consequences—they result in costly interim systems, a reduction in units
   procured, postponed benefits (in terms of safety and efficiency), or “crowding
   out” other projects.


• Congress directed FAA to have a fully functioning cost accounting system in
   1996. However, over 6 years and $38 million later, FAA still does not have a
   cost accounting system that covers the agency and provides managers with
   accurate cost data by location. Without such a cost accounting system, FAA
   cannot credibly claim to be, nor function as, a performance-based organization.
   To have an effective cost accounting system, FAA also needs an accurate labor


                                        9
    distribution system. Cru-X is the labor distribution system FAA chose to track
    hours worked by air traffic employees.                    As designed, Cru-X could have
    provided credible workforce data for addressing controller concerns about
    staffing shortages, related overtime expenditures, and to help determine how
    many controllers are needed and where. That information in turn is especially
    important given projections of pending controller retirements. Unfortunately,
    Cru-X as designed has not been implemented. We hope it will be in the
    coming year.


Amtrak. Amtrak's FY 2004 budget request to the Congress totals $1.812 billion.2
The Administration, however, is requesting $900 million: $671 million for
operating costs and $229 million for maintenance and capital improvements. All
of Amtrak’s Federal funding traditionally has come from the General Fund.


In 1997, Congress passed the Amtrak Reform and Accountability Act requiring
Amtrak to become operationally self-sufficient by 2003. Despite Amtrak’s
attempts to increase revenues and reduce costs, its losses are far greater now than
in 1997 when the Act was passed. For FY 2002, Amtrak reported:


• $1.3 billion in operating losses (up from $797 million in FY 1997);
• $681 million in cash losses (up from $549 million in FY 1997);
• $4.8 billion in debt and capital lease obligations (up from $1.7 billion in
    FY 1997);
• $250 million to $300 million in annual debt service requirements (up from
    $75 million in FY 1997); and



2
   According to Section 24315(b)(1)(B) of Title 49 U.S.C., Amtrak “may include recommendations for
legislation, including the amount of financial assistance needed for operations and capital improvements.”



                                                   10
• continued growth in its capital investment backlog. Amtrak projects it will
   need to invest $30 billion in capital projects over the next 25 years just to
   sustain the current system.


We are encouraged by improvements David Gunn has made since his appointment
as President and Chief Executive Officer of Amtrak, such as management
streamlining and workforce reductions in the hundreds and a willingness to
provide more comprehensive operating and financial information to DOT and
Congress. However, Amtrak’s FY 2004 request contains two key assumptions
that bear close scrutiny: Amtrak assumes productivity enhancements from work
rule changes as a result of new labor agreements (although the successful
negotiation of these agreements and any attendant savings are uncertain at this
point). Second, Amtrak projects $206 million in additional savings from actions
as yet undefined.


We have heard claims that cutting long-distance routes would solve the current
dilemma.    This is a myth.      Because of labor severance payments and other
shutdown costs, it is unlikely there would be any short-term savings. It is also
unlikely that the long-term savings from such a move would be large enough to
eliminate the need for substantial financial support for the railroad’s capital needs.


Lower-than-predicted revenues for the first 4 months of FY 2003 combined with
more aggressive budget targets in the second half of the year means that Amtrak
faces a significant challenge to avoid another cash crisis similar to the one
experienced last summer. Moreover, as the debate on Amtrak’s reauthorization
and the future of inter-city passenger rail evolves, critical short-term and long-term
funding decisions must be made.




                                          11
Federal Highway Administration. FHWA requested $30.2 billion for FY 2004,
all of which is from the Highway Trust Fund. FHWA represents 56 percent of
DOT’s budget.


Increased highway investment under TEA-21 has produced substantial benefits,
but resource demands remain great. The number of active large highway projects
has increased from 9 in 2000 to 17 today. Those 17 projects are estimated to cost
more than $41.3 billion, according to current FHWA estimates.


FHWA must ensure that major projects are delivered approximately on time, on
budget, and free from fraud. Whether funds are lost to cost overruns, schedule
delays, or fraud, the result is that fewer resources remain for transportation
projects. To illustrate, if the efficiency with which the $500 billion invested by the
Federal Government and states over the last 6 years were improved by only
1 percent, an additional $5 billion would be made available - enough to fund 4 of
the 17 active large highway projects.          (These projects are currently being
monitored by FHWA’s Office of Program Administration.)


We have seen several large projects that stand as examples of good project
management practices—Utah’s I-15 and the Alameda Corridor in California, for
example.    We have also seen ineffective management and oversight lead to
significant cost increases, financing problems, schedule delays, and technical or
construction difficulties on projects such as the Central Artery in Massachusetts,
and the Springfield Interchange in Virginia.


Fraud is also a drain on financial resources. In the last few years, we have seen
indictments for fraud triple, convictions double, and monetary recoveries of
$73 million. Our work does not suggest abuse on a scale such as was experienced
in the 1950s and 1960s.          Nonetheless, at present, we have 98 pending


                                         12
investigations of contract and grant fraud in 35 states. The types of fraud we are
commonly seeing today include false claims, product substitution, Davis-Bacon
Act violations, bid-rigging, Disadvantaged Business Enterprise (DBE) fraud, and
corruption of public officials. Secretary Mineta and the Department have been
very supportive of our effort to aggressively prevent and detect fraud in this
program.


Although FHWA has taken initial steps to improve its stewardship, much more
needs to be done to ensure that Federal funds are used effectively and are
protected from fraud, waste, and abuse. Actions FHWA should take include:


• Transitioning from reviewing contract-level actions to a higher-level oversight
   role focused on improving state management practices in areas such as
   preparing cost estimates, designing projects, monitoring schedules, and
   planning;


• Establishing minimum standards for cost estimates so that such basic cost
   items as inflation, construction management, design, and adequate contingency
   resources will not be excluded from estimates of what a highway program will
   cost;


• Ensuring that State Transportation Improvement Programs (3-year plans) are
   financially constrained and properly represent to the tax payers the highway
   and bridge projects a state will realistically undertake and finance;


• Ensuring that major projects use proven project management tools including
   finance plans that show how much a project will cost, its schedule and where
   the money is coming from;



                                         13
• Modernizing its staffing structure to move from an engineering culture to a
   more     multi-disciplined       workforce   with   the   management,   financial,
   environmental, program analysis, and engineering oversight skills needed to
   review modern highway projects and programs;


• Establishing a debarment and suspension policy to ensure that people who
   defraud one DOT program cannot defraud another; and


• Supporting legislative changes to allow recoveries and civil penalties to be
   retained by states who suffer losses as a result of fraud.


Federal Transit Administration.            FTA’s FY 2004 budget request totals
$7.22 billion, of which $5.93 billion will come from the Highway Trust Fund and
$1.29 billion from the General Fund. The Department estimates that through 2020
an average annual capital investment of $14.8 billion in Federal, state and local
funds will be required to maintain the condition and performance of the Nation’s
transit assets at their 2000 level.


Given the demand for transit investments, there are several options for ensuring
that project costs are contained and that communities are encouraged to explore
cost-effective transit solutions.


• Continuing strong oversight of FTA grantees. FTA has institutionalized the
   use of project management oversight contractors (PMOCs) and financial
   management oversight contractors (FMOCs) to oversee transit projects and to
   report to its in-house staff on findings and needed corrective actions. This is
   essentially a sound approach that can provide early warnings of cost, schedule,
   financing and quality problems.          Over the past 2 years, we have seen
   significant strengthening in FTA’s oversight of its grantees.       FTA and its

                                           14
   contractors must remain vigilant in ensuring that project costs are contained,
   schedules do not slip, and funds are available to complete the projects.


• Encouraging communities to be more cost-conscious when evaluating
   alternative transportation solutions before requesting Federal funding.    For
   example, the Miami-Dade Transit Agency expanded its existing busway
   system, after determining that a heavy rail system would have cost 10 times as
   much to build, and a light rail system would have cost 4 times as much in
   comparison with a busway.


FTA has also suggested that reducing the cap on the Federal share of New Starts
funding from 80 percent to 50 percent of project costs would allow them to fund
more New Starts projects. However, we are uncertain regarding the likely impact
of this proposal. First, the funding pattern since the enactment of TEA-21 shows
that the Federal share of New Starts projects has averaged 45 percent. Second,
while Federal New Starts money may be limited to 50 percent, it needs to be made
clear whether grantees can use Federal transit formula and other Federal funds to
increase the percentage of Federal funding to well above 50 percent.


Maritime Administration. The Maritime Administration (MARAD) is a new
budget account for this subcommittee. MARAD’s FY 2004 budget request is
$219 million, which comes from the General Fund. The two major cost drivers at
MARAD are:


• MARAD’s Title XI Loan Guarantee Program, which assists private companies
   in obtaining financing for ship construction or shipyard modernization. After a
   period of stability, nine loans have defaulted in the last 5 years, totaling
   approximately $490 million, and representing about 11 percent of MARAD’s
   $4.3 billion portfolio.   To pay the $330 million in loan guarantees due in


                                        15
   FY 2002, MARAD borrowed $136 million from the Treasury and paid
   $194 million from reserves financed by fees on guaranteed loans. To date,
   MARAD has repaid $124 million to the Treasury. We are close to issuing a
   final report on this program that was requested by Senator McCain.


• MARAD’s requested $11.4 million in FY 2004 for its Ship Disposal Program,
   which is legislatively mandated to dispose of MARAD’s obsolete vessels by
   FY 2006.     These vessels comprise merchant and non-military ships in
   MARAD’s National Defense Reserve Fleet that have deteriorated to a point
   where they are no longer operational.           This request, along with the
   $31.2 million appropriated in FY 2003, will provide for the dismantling of 14
   to 18 of the 130 obsolete ships. Of the FY 2003 funds, $20 million was
   provided by the Department of Defense (DOD). However, it is uncertain how
   much, if any, funding MARAD will receive from the DOD in FY 2004. Also,
   at the current average cost of $2.5 million per ship, even continuance of the
   FY 2003 funding level would not enable MARAD to dispose of all its obsolete
   vessels by the deadline. MARAD’s inventory of obsolete vessels has almost
   doubled in the last 6 years because MARAD’s ships are becoming obsolete at a
   faster rate than MARAD can dispose of them. MARAD must find a faster and
   more cost-effective solution, as these ships are deteriorating, contain hazardous
   substances, and pose an immediate environmental threat, which will be
   difficult given the limited domestic ship disposal market.


This concludes our summary overview of the Department’s FY 2004 budget
request. The remainder of this testimony goes over the Operating Administrations
in greater detail, providing our insights on the Department's budget request and the
performance challenges facing these Operating Administrations.




                                        16
FEDERAL AVIATION ADMINISTRATION

In 1996, Congress acted to make FAA a performance-based organization by
giving the agency two powerful tools: personnel reform and acquisition reform.
Congress also directed FAA to develop an effective cost accounting system so that
it would know, at the facility level, where it was spending money and for what.
The expectation was that by relieving the agency from Government rules and
establishing a cost accounting system, FAA would operate more like a business—
that is, services would be provided to users cost effectively and air traffic control
modernization programs would be delivered approximately on time and within
budget.

Seven years later, we do not see sufficient progress toward achieving those
outcomes. FAA’s budget has grown from $8.2 billion in FY 1996 to $14 billion in
FY 2004—an increase of $5.8 billion, or over 70 percent. About 33 percent of this
increase was a result of higher airport funding, and about 15 percent was a result
of increases in FAA’s modernization budget, but the largest portion of this
increase (52 percent) was attributable to FAA’s operating budget. During this
period, we have also seen large cost overruns and schedule slips in FAA’s major
acquisitions. Continued growth of that magnitude is unsustainable. Given the
fiscal situation and multibillion-dollar declines in projected Aviation Trust Fund
receipts, FAA must become performance-based in deeds as well as words.

Controlling Operating Cost Increases. To date, the most visible results of
personnel reform are increased workforce costs. During this period, there has
been improved labor/management relations with controllers (FAA’s largest
workforce). However, FAA’s operations budget, which is 82 percent payroll
costs, has increased from $4.6 billion in FY 1996 to $7.6 billion in FY 2004 – an
increase of over 65 percent. Much of the increase has been a result of salary
increases negotiated under personnel reform. The 1998 collective bargaining
agreement with the National Air Traffic Controllers Association (NATCA), which
created a new pay system for FAA’s controllers, was a significant cost driver.
Under the agreement, most controllers’ salaries increased substantially. For
example,

• The average base salary for fully certified controllers has now risen to over
  $106,000 – a 47 percent increase over the 1998 average of about $72,000.
  This compares to an average salary increase for all other FAA employees
  during the same period of about 32 percent, and for all Government employees
  in the Washington, D.C. area of about 30 percent.

Although linking pay and performance was a key tenet of personnel reform, only
about 36 percent of FAA employees receive pay increases based on individual


                                         17
performance. The remainder of FAA employees receive largely automatic pay
increases

We also found that there are between 1,000 and 1,500 side bar agreements or
MOUs that FAA managers have entered into with NATCA. Many serve
legitimate purposes and are valid, but a number of MOUs we reviewed were not
cost-effective and, in our opinion, not in the best interest of the Government. For
example,

• One MOU we reviewed allows controllers transferring to larger consolidated
  facilities to begin earning the higher salaries associated with their new
  positions substantially in advance of their transfer or taking on new duties. At
  one location, controllers received their full salary increases 1 year before their
  transfer (in some cases going from an annual salary of around $54,000 to over
  $99,000). During that time, they remained in their old location, controlling the
  same air space, and performing the same duties.

Although some MOUs can have significant financial implications, FAA
management does not know the exact number or nature of these agreements, there
are no established procedures for approving MOUs, and their cost impact on the
budget has not been analyzed. We briefed the FAA Administrator on our concerns
regarding MOUs, and we are working with the Administrator and her staff to
address this issue.

Improving Acquisition Management. Acquisition reform results have been
mixed—contracts are awarded more expeditiously, and FAA’s “build a little, test a
little” approach has clearly avoided failures on the scale of the multibillion-dollar
Advanced Automation System acquisition. But the bottom line is that significant
schedule slips and substantial cost growth for major air traffic control acquisitions
are all too common. The following chart provides cost and schedule information
on five projects largely managed since FAA was granted acquisition reform.




                                         18
                              Estimated        Percent
                           Program Costs        Cost                         Implementation
         Program         (Dollars in Millions) Growth                            Schedule
                         Original Current                                  Original     Current
  Wide Area Augmentation $892.4      $2,922.4* 227 %                      1998-2001    2003-To Be
  System                                                                              Determined**

  Standard Terminal               $940.2       $1,690.2**      80 %       1998-2005       2002- To Be
  Automation Replacement                                                                  Determined**
  System

  Airport Surveillance            $752.9         $916.2        22 %       2000-2005           2003-2008
  Radar-11

  Weather and Radar               $126.4         $152.7        21 %       1999-2000           2002-2003
  Processor

  Operational and                 $174.7         $251.0        44 %       1998-2001           2002-2005
  Supportability
  Implementation System
   * This includes the cost to acquire geostationary satellites and costs are under review.
   **Costs and schedules are under review by FAA.

These five acquisitions have experienced cost growth of over $3 billion and
schedule slips of 3 to 5 years. Problems with cost growth, schedule slips, and
performance shortfalls have serious consequences - they result in costly interim
systems, a reduction in units procured, postponed benefits (in terms of safety and
efficiency), or “crowding out” other projects. For example:

• In FY 2002 alone, FAA reprogrammed over $40 million from other
  modernization efforts (data link communications, oceanic modernization, and
  instrument landing systems) to pay for cost increases in the Standard Terminal
  Automation Replacement System.

There are large-scale acquisitions - both old and new - whose cost or schedule
baselines need to be revised because the programs have changed considerably or
benefits have shifted. For example, the Integrated Terminal Weather System
(ITWS) provides air traffic managers with enhanced weather information. FAA
planned to complete deployment of the new weather system in 2004 at a cost of
$286 million. However, unit production costs have skyrocketed from $360,000 to
over $1 million; FAA cannot execute the program as scheduled and may extend
the deployment by 4 years.

In addition, the Local Area Augmentation System (LAAS) is a new precision
approach and landing system. FAA intended to have LAAS (Category I, which
provides basic services) operational in 2004. This date cannot be met because of


                                                    19
additional development work, evolving requirements, and unresolved issues
regarding how the systems will be certified as safe for pilots to use. Moreover, the
more demanding Category II/III service planned for 2005 is now a research and
development effort with an uncertain end date.

Implementing Cost Controls. To effectively manage its costs and genuinely
operate like a business, FAA needs an accurate cost accounting system with an
effective labor distribution system, and needs to follow sound business practices in
administering its contracts.

• The 1996 Reauthorization Act for FAA required the agency to develop a cost
  accounting system in order to track agency costs and provide managers with
  needed cost data by location. However, after over 6 years and $38 million,
  FAA is now planning to complete its cost accounting system by September
  2003, assuming no further slippage. Without a reliable cost accounting system,
  FAA cannot credibly claim to be, nor function as, a performance-based
  organization.

• To have an effective cost accounting system, FAA also needs an accurate labor
  distribution system. Cru-X is the labor distribution system FAA chose to track
  hours worked by air traffic employees. As designed, Cru-X could have
  provided credible workforce data for addressing controller concerns about
  staffing shortages, related overtime expenditures, and to help determine how
  many controllers are needed and where. That information in turn is especially
  important given projections of pending controller retirements. Unfortunately,
  Cru-X as designed has not been implemented. We hope it will be in the
  coming year.

• We have consistently found a lack of basic contract administration at every
  stage of contract management from contract award to contract closeout. For
  example, we found that Government cost estimates were: prepared by FAA
  engineers, then ignored; prepared using unreliable resource and cost data; or,
  worst of all, prepared by the contractor (a conflict of interest). FAA is in the
  process of following through on its commitments to address this issue.

Other Significant Issues That Will Require Attention. There are three other
issues that need to be considered in the upcoming appropriations.

• A major issue for airports is funding the next phase of EDS integration. Thus
  far, nearly all EDS equipment has been lobby-installed. TSA’s planned next
  step (integrating the EDS equipment into airport baggage systems) is by far the
  most costly aspect of full implementation. We have seen estimates that put the



                                        20
   costs of those efforts at over $3 billion. A key question is who will pay for
   those costs and how.

   While the current Airport Improvement Program (AIP) has provided some
   funding in the past for aviation security, we urge caution in tapping this
   program until we have a firm handle on airport safety and capacity
   requirements. In FY 2002, airports used over $561 million of AIP funds for
   security-related projects. In contrast only about $56 million in AIP funds were
   used for security in FY 2001. Continuing to use a significant portion of AIP
   funds on security projects will have an impact on airports’ abilities to fund
   capacity projects.

• FAA’s Operational Evolution Plan (OEP) for enhancing airport capacity needs
  to be updated in light of September 11th and the financial condition of the
  airlines. FAA is working to retool the OEP. FAA needs to synchronize the
  OEP with FAA’s budget, set priorities, and address uncertainties with respect
  to how quickly airspace users will equip with new technologies. It also needs
  to ensure that the costs associated with multibillion-dollar modernization
  projects not in the OEP are considered when establishing priorities and are
  integrated with OEP initiatives. It is a good time to rethink what reasonably
  can be accomplished over the next 3 to 5 years.

• In the current financially-strapped aviation environment, FAA must remain
  vigilant in its oversight to sustain a high level of aviation safety. FAA has
  recognized this need and has taken steps to heighten surveillance during times
  when airlines are in financial distress. For example, FAA has increased the
  number of inspections planned for distressed air carriers’ internal aircraft
  maintenance operations. FAA also needs to pay close attention to the level of
  oversight it provides for repair stations. In the past 5 years, there has been a
  significant increase in air carriers’ use of these facilities. In 1996, major air
  carriers spent $1.6 billion for outsourced maintenance (37 percent of total
  maintenance costs), whereas in 2001, the major air carriers outsourced
  $2.9 billion (47 percent of total maintenance costs). This trend is likely to
  continue, and FAA needs to consider the shift in maintenance practices when
  planning its safety surveillance work.




                                        21
FINANCIAL HEALTH OF THE AIRLINE INDUSTRY

Much of the airline industry is in a precarious financial situation. With what are
likely to be permanent changes in the nature of business demand,3 the major
network carriers have found themselves with unsustainable cost structures that
must be revamped on two fronts: labor costs and the cost and productivity of
capital. Self-help is the difficult but necessary solution in this restructuring effort.

An exception may be the loan guarantees provided by the Air Transportation
Stabilization Board. In addition to their generally weak financial condition,
airlines are beset by uncertainty, more so than most industries, from the prospects
of war or further acts of terrorism. In this environment, access to the private
financial markets is difficult or nonexistent for the large network carriers. Loan
guarantees, if prudently incurred, can help to stabilize the financial condition of
the industry and not simply be used to avoid making hard choices.

The Congress may find that the financial condition of the airline industry results in
additional requests from the Board. Should the Board determine that an airline in
financial straits has restructured its business and its business plans are realistic, a
loan guarantee that helps to finance their exit from financial distress may be a
prudent, short-term market intervention that will likely provide long-term benefits
to the public, particularly if taxpayers are adequately compensated for the risks the
Government will incur. We believe the Board has done a reasonably good job in
achieving this goal.

Small communities have a keen interest in the successful restructuring of the large
network carriers. It is these carriers, in both their mainline operations and those of
their regional affiliates, who connect small-hub and non-hub communities to the
aviation system. Maintenance of service in these markets will be most successful
where restructuring of the cost structures of the network carriers is most
successful.

This is all the more important given the long-term trend at non-hub airports
(airports that individually handle less than 0.05 percent of enplaned passengers
nationwide). For the last 5 years, these airports have seen a continuous decline in
their service. At the same time, service to larger airports was growing until the
downturn in business travel 2 years ago. Just in the last 3 years, from March 2000
to March 2003, these airports lost 19 percent of their commercial air service as
measured in scheduled passenger seats, and some parts of the Nation have seen


3
    Business travelers have constituted 20 percent of air travelers, but provided about 50 percent of the revenue,
    according to some airlines. It is unlikely that business travelers in the future will be willing to sustain the high fares
    necessary to generate this level of revenue.


                                                             22
even greater cuts, with non-hub airports in the Northeast and Midwest losing
approximately one-third of scheduled air service.

Many small communities rely on the Essential Air Service (EAS) program as a
means of sustaining limited air service, funding this program will continue to be a
challenge given the anticipated growth in the number of communities seeking
assistance and the significantly increased average subsidy levels, which rose from
$79 to $229 per passenger (190 percent) between 1995 and 2002. The President’s
FY 2004 budget proposes significant changes to EAS, including lowering funding
to $50 million from over $100 million in FY 2003 and restricting the eligibility of
communities for subsidies. We know the funding level for this program will be an
important matter for the Committee’s consideration this year.

AMTRAK

Amtrak depends on Federal, state, and local subsidies to supplement its revenue
earned from operating passenger rail service across the Nation. For FY 2004, the
Administration requested $900 million for Amtrak, but Amtrak asked for
$1.812 billion.

Despite Amtrak’s attempts to increase revenues and reduce costs to become
operationally self sufficient, its losses are far greater now than in 1997, when
Congress passed the Amtrak Reform and Accountability Act. Amtrak’s annual
Federal funding over the last 5 years has averaged about $1.1 billion. Even with
that funding, Amtrak has not been able to meet its operating and capital
requirements.

                                     Amtrak Operating and Cash Loss: 1992 - 2002

              $1,400
                                                                                                                          1271     1258
              $1,200

                                                                                                      916         944
              $1,000                                                                      860
                                                      833     808     798     797                                            770
                              712         731
     ($ in millions)




                       $800                                                                                                           681
                                                        578                                     561         579
                                                                554     558         549                             561
                       $600         506         525

                       $400

                       $200

                        $0
                              1992        1993        1994    1995    1996    1997        1998        1999        2000    2001     2002
                                                                      Operating Loss                  Cash Loss




                                                                              23
A Look at Amtrak’s Track Record for FY 2002 Paints a Stark Picture

• Amtrak earned about $2.3 billion in revenue - over 40 percent of which came
  from non-passenger sources such as transporting mail and access fees for use
  of its rail infrastructure. However, operating expenses topped $3.5 billion.

• Amtrak reported an operating loss of $1.3 billion, a cash loss of $681 million,
  and short- and long-term debt and capital lease obligations of $4.8 billion (up
  from $1.7 billion in 1997). This has saddled Amtrak with annual debt service
  requirements ranging from $250 million to $300 million (up from $75 million
  in 1997).

                                                  Amtrak Debt: 1997 - 2002

                                $5,500
                                                                                                          4,833
                                $5,000                                                        4,628

                                $4,500

                                $4,000                                             3,577                   3,743
                                                                                                3,632
                                $3,500

                                $3,000                                                2,798
              ($ in millions)




                                                                      2,449
                                                        2,157
                                $2,500
                                          1,737
                                $2,000                                     1,792
                                                             1,536
                                $1,500
                                               1,216                                          996       1,090
                                $1,000                                             779
                                                       621           657
                                         521
                                 $500

                                   $0
                                           1997          1998          1999          2000      2001       2002

                                                  Short-Term Debt           Long-Term Debt     Total


             NOTE: Amtrak’s Consolidated Balance Sheet also lists Deferred Credits
             and Other Liabilities such as casualty and environmental reserves, as well
             as post-retirement employee benefits obligations, totaling an additional
             $1.2 billion.


• Amtrak’s deferred capital investment backlog continued to grow; estimates for
  the Northeast Corridor alone are $5 billion to $6 billion. Amtrak projects it
  will need $30 billion in capital investments over the next 25 years just to
  sustain the current system.

• To make ends meet in 2002, Amtrak required an emergency supplemental
  appropriation of $205 million and a $100 million direct loan from DOT. In
  total, Amtrak received approximately $1.2 billion in Federal funds for
  FY 2002.




                                                                      24
Improvements Seen Under New Leadership Encouraging, but Cannot Solve
Amtrak’s Problems on Their Own. On a positive note, since Mr. Gunn assumed
leadership at Amtrak last spring, we have seen management streamlining and
workforce reductions of hundreds of positions and a willingness to provide more
comprehensive operating and financial information to DOT and Congress.
However, Amtrak’s problems cannot be solved simply by finding savings within
the current structure. The problem is too big and too fundamental to the system.
We have heard claims that cutting long-distance routes would solve the current
dilemma. This is a myth. Because of labor severance payments and other
shutdown costs, it is unlikely there would be any short-term savings. It is also
unlikely that the long-term savings from such a move would be large enough to
eliminate the need for substantial financial support for the railroads’ capital needs.

FY 2003 - Another Difficult Year for Amtrak.               Congress appropriated
$1.05 billion for Amtrak in FY 2003 and deferred payment of the $100 million
direct loan from FY 2002. Therefore, the appropriation was equivalent to an
appropriation of $1.15 billion. This is $50 million less than Amtrak’s request of
$1.2 billion. The appropriation establishes requirements for Amtrak to provide
reports to the Secretary of Transportation and Congress on its operating and
capital plans, its actions to implement new cost sharing procedures with states
served with short-distance trains, and measures to reduce the financial burden on
the Federal treasury of long-distance trains. The Secretary of Transportation was
directed to assume a more rigorous oversight role by reviewing Amtrak’s requests
for grant funds and certifying the accuracy of financial information Amtrak
provides to Congress.

Mr. Chairman, we see FY 2003 as another difficult year for Amtrak. Through
January 2003, its cash losses were $73 million larger than for the same period last
year, and Amtrak’s budget for the second half of the year presents more aggressive
revenue and expense targets. In our view, Amtrak faces a significant challenge to
avoid another cash crisis similar to the one experienced last summer.

Facing the Future of Inter-City Passenger Rail. Considering Amtrak’s recently
submitted grant request of $1.812 billion for FY 2004 (more than double the
Administration’s request of $900 million), we would like to offer the following
four points:

• There is no inter-city passenger rail trust fund, so Amtrak’s Federal
  appropriation has traditionally come from the General Fund.

• The Administration’s grant request includes only $229 million for maintenance
  and capital improvements. This amount is substantially short of what Amtrak
  needs to cover its debt service requirements and to maintain the railroad


                                         25
   infrastructure and equipment in reasonably good working order.                The
   difference must come from somewhere.

• Even at the $1.8 billion level, Amtrak’s request does not include the repayment
  of the $100 million direct loan to the Department and safety and security needs
  identified in proposals following September 11, 2001.

• Amtrak’s request contains two key assumptions that bear close scrutiny:
  - Amtrak assumes productivity enhancements from work rule changes as a
    result of new labor agreements. The successful negotiation of these
    agreements and any attendant savings are uncertain at this point.
  - Amtrak projects $206 million in additional savings from actions as yet
    undefined.

Amtrak’s 5-year authorization expired September 30, 2002. Critical short-term as
well as long-term funding decisions will need to be made as the debate on
Amtrak’s future, and the future of inter-city passenger rail, evolves.

FEDERAL HIGHWAY ADMINISTRATION

The FY 2004 Budget Request includes $30.2 billion for FHWA, all from the
Highway Trust Fund. The request creates a $1 billion program to fund “ready to
go” highway projects aimed at alleviating traffic bottlenecks and improving
infrastructure conditions. The budget also focuses on improving transportation
safety, which remains the Department’s top priority.

Increased Highway Investment Has Produced Substantial Benefits, but
Resource Demands Remain Great. The combined Federal, state, and local
investment in highways during the 6-year period of the Transportation Equity Act
for the 21st Century (TEA-21) will exceed $500 billion – an average expenditure of
more than $225 million a day. These investments have produced substantial
benefits. According to FHWA, the percentage of highway mileage with an
“acceptable” ride quality rose from 82.5 percent in 1993 to 86.0 percent in 2000.
The percentage of bridge deck area considered deficient dropped from
30.9 percent in 1996 to 27.9 percent in 2000. However, despite the historic
investment in highway infrastructure, the traveling public still faces significant
congestion and delays on a daily basis.

Continuing to maintain and enhance our highway infrastructure will require large
investments. As of March 2003, there are 17 active large highway projects
estimated to cost $41.3 billion. Another 25 planned projects are expected to cost
$43 billion, and 21 active and planned large corridor projects will cost $42 billion.



                                         26
                         Top Highway Mega-Projects by Dollar Value
                                     Active Projects
  Project Name                                                                        Project Cost
                                                                                       (Billions)
  Central Artery/Ted Williams Tunnel – Boston, MA                                        $14.6
  Interstate 64/Hampton Roads Third Crossing – Hampton, VA                                  4.4
  Central Texas Turnpike – Austin, TX                                                       3.6
  Interstate 95/Woodrow Wilson Bridge – DC, MD, VA                                          2.6
  Interstate 80/San Francisco/Oakland Bay Bridge (East Span) – Oakland, CA                  2.6
  Southeast Corridor (Highway Portion – Interstates 25/225) – Denver, CO                    1.7
  Interstate 10/Katy Freeway – Houston, TX                                                  1.6
  New Mississippi River Bridge – St. Louis, MO/IL                                           1.4
  New Ohio River Bridges (Kentucky/Indiana) – Louisville, KY                                1.4
  Miami Intermodal Center – Miami, FL                                                       1.3
  State Road 210/Foothill Freeway – Los Angeles, CA                                         1.1
  Marquette Interchange, Interstates 94/43/794 – Milwaukee, WI                              1.1
  Interstate 95/New Haven Harbor Crossing – New Haven, CT                                   1.0
  Interstates 4/275 – Tampa, FL                                                             1.0
  Springfield Interchange Interstates 95/395/495 – Springfield, VA                          0.7
  Cooper River Bridges – Charleston, SC                                                     0.7
  State Road 125 South Toll Road – San Diego, CA                                            0.5
                                                                             Total:      $41.3


Effective Stewardship of These Investments Is Essential - Especially When
Resources Are Limited. Congress, the Administration, and state governments are
all stakeholders in ensuring the investments in large projects result in a high
quality transportation system. These are complex and challenging projects that
should be delivered to the taxpayer approximately on time, on budget, and free
from fraud and other irregularities. As Secretary Mineta has said several times,
“My credo on waste, fraud, and abuse is simple: If a project calls for concrete and
it’s a ten sack job, we at DOT are going to be sure we don’t end up with a seven
sack job.”

We have seen several large projects that stand as examples of good project
management practices - Utah’s I-15 and the Alameda Corridor in California are
examples. On the other hand, we have seen ineffective management and oversight
lead to significant cost increases, financing problems, schedule delays, and
technical or construction difficulties. These projects include the Central Artery in
Massachusetts and the Springfield Interchange in Virginia. Costs for the
Springfield Interchange Project increased over 180 percent from $241 million to
$677 million. In part, the cost increases occurred because State officials excluded
known or easily identifiable costs, including basic items such as construction
management, inflation, preliminary engineering, and even design. In addition, the
baseline estimate was prepared far too early and was based on plans that were only
15 to 20 percent complete. Virginia was able to exclude these costs because
FHWA had not established minimum standards for states to follow when


                                                27
preparing cost estimates, nor had FHWA really scrubbed the estimates Virginia
provided.

Whether funds are lost to cost overruns, schedule slippage, or fraud, the result is
that fewer resources remain for transportation projects. Therefore, improving
project management can provide significant benefits. To illustrate, if the
efficiency with which the $500 billion invested over the last 6 years were
improved by only 1 percent, an additional $5 billion would be made available -
enough to fund 4 of the 17 active large highway projects.

We believe the states and FHWA have learned important lessons from problem
projects, and are committed to improving management and oversight of large
projects. The Federal Highway Administrator has strongly emphasized the
importance of improving FHWA’s oversight and accountability over funds, and
the FY 2004 budget request recognizes that FHWA needs to improve its oversight
activities for major projects.

Based on our audit work, which includes reviews of 18 major projects, we see
continued opportunities for improved management, oversight, and increased
vigilance. Overall, we see several opportunities to improve project delivery.

Refocusing FHWA Oversight to Ensure That Major Projects Are Delivered
Approximately On Time and On Budget. FHWA has historically focused most
heavily on oversight of engineering and contract issues, rather than on oversight of
management and financial processes. For example, FHWA still performs many
detailed contract administration actions, such as approving contract change orders
and the location and wording of highway signs.

Because FHWA remains focused on detailed engineering activities, rather than
developing a more multi-disciplinary staff and higher-level approach to oversight,
it has sometimes missed larger management issues. For example, at the time the
Central Artery announced a $1.4 billion cost increase in 2000, FHWA had
approved thousands of design changes. Nonetheless, they were caught unaware
when a cost increase was announced, even though they had just approved the
project’s finance plan.

Although FHWA has taken several steps to improve its stewardship, it needs to
transition from its traditional role of reviewing and approving contract-level
actions, to a new higher-level role of conducting reviews to ensure the
effectiveness of the states’ processes in areas that are major project drivers, such
as financing, project-level cost estimates, schedule performance, transportation
planning, and accountability over funds.



                                        28
In reviewing large projects, we have identified a number of tools that can help
managers keep projects approximately on time and on budget. These tools include
reliable cost estimates, project finance plans, achievable state transportation
program plans, and integrated master schedules. Finally, information is critical for
policy makers as they decide which projects would be the best use of resources to
address transportation problems and promote economic development. However,
we found several troubled highway projects in which these tools were not used, or
were not used effectively. For example, several large projects were not using the
full capability of their schedule tools, and thus, did not have the information
needed to deal with the inevitable schedule conflicts that arise in complex projects
employing multiple contractors.

FHWA has a skills imbalance because its workforce is structured almost
exclusively around engineering skills that were needed more during construction
of the interstate system. Of FHWA’s workforce of 2,860 employees, 1,130, or
approximately 40 percent, are highway engineers. Today’s highway projects
require skills in emerging technologies and professional expertise in financing,
cost-estimating, program analysis, and schedule management, yet FHWA has
limited staff devoted to these areas. Engineering skills will remain important, but
FHWA also needs a workforce with the skills and competencies needed for
oversight and stewardship. This is not, however, to suggest that FHWA needs
more staff. A strategy for achieving a more multi-disciplinary approach to
oversight activities could include a mix of actions such as:

• hiring staff with private sector project management skills, such as financing
  and cost estimating; and

• adopting the Federal Transit Administration’s practice of using contractors to
  oversee project and financial management.

An FHWA task force has been working since April 2000 “to evaluate the current
and future needs of the FHWA workforce,” and it plans to develop and deploy a
Human Capital Plan in FY 2003.

Promoting Efforts to Prevent, Detect, and Prosecute Fraud in the Federal Aid
Highway Programs. Congress, the Federal Government, and state governments
are all concerned with preventing fraud and abuse in transportation projects. In
the past 3½ years, the Office of Inspector General has seen significant increases in
our fraud case work and in judicial actions involving highway and transit projects.
We have seen indictments for fraud triple, convictions double, and monetary
recoveries of $73 million during this period.




                                        29
At present, we have 98 pending investigations of contract and grant fraud in
35 states. The types of fraud we are commonly seeing today include false claims,
product substitution, Davis-Bacon Act violations, bid-rigging, Disadvantaged
Business Enterprise (DBE) fraud, and corruption of public officials. For example,
the case load includes 22 DBE investigations, an increase of 14 percent from the
end of last fiscal year.

Under the law, FHWA can debar contractors convicted of fraud from doing further
business with the Government. FHWA can also suspend contractors from
participating in new Federal contracts if they are under indictment for fraud.
However, there is no Department-wide policy on suspensions and debarments, and
FHWA is sometimes reluctant to impose these sanctions.

States normally do not receive a portion of fines and monies recovered in
successful fraud prosecutions. Fines and recoveries from such judgments are
returned to the Federal Treasury. Since the states’ programs are damaged by the
fraud that leads to the enforcement action, sharing in the recoveries would help
them restore their programs and provide support for further fraud deterrence
efforts.

An example of this occurred in a civil settlement with Contech Construction
Products, Inc., and Ispat-Inland, Inc., which involved product substitution in
Louisiana. The companies substituted sub-standard polymer-coated steel culvert
pipe used in highway and road construction projects from 1992 through 1997.
Under the settlement agreement, the United States and Louisiana shared in a
$30 million recovery. Louisiana received $5.2 million to compensate for the cost
of the investigation and losses due to the product substitution.

Key actions DOT can take in its continuing fight against fraud include:
(1) establishing a Department-wide debarment and suspension policy;
(2) providing specialized fraud prevention training at the Federal and state level;
and (3) supporting legislative changes to allow recoveries and civil penalties to be
retained by the states.

FEDERAL TRANSIT ADMINISTRATION

The Federal Transit Administration’s (FTA) FY 2004 budget request totals
$7.22 billion, of which $5.93 billion will be from the Highway Trust Fund and
$1.29 billion from the General Fund. As shown in Table 1, the FY 2004 request
proposes distributing most of these funds as formula grants—a significant change
in the program from FY 2003.




                                        30
                             Table 1. FTA Budget Categories
                                                2003              2004
                                               Actual            Request

             Formula Grants and
             Research                                         $5,615,000,000
             Formula Grants               $3,839,000,000
             Major Capital Investment
             Grants
             Capital Investment Grants

                      New Starts          $1,214,400,000      $1,515,000,000
                      Modernization       $1,214,400,000
                      Bus                  $607,200,000         $19,000,000

             Job Access and Reverse
             Commute                        $150,000,000
             Research and Planning          $122,000,000
             Other                           $79,000,000        $77,000,000

             TOTAL                        $7,226,000,000      $7,226,000,000



FTA’s budget proposal also reflects sustained Federal funding at record high
levels, which over the last 6 years, has contributed to a ridership increase of
1.76 billion (or 22 percent). The Department estimates that an average annual
capital investment of $14.8 billion would be needed just to maintain the current
transit system through FY 2020.

The chart (below) shows FTA’s annual appropriations compared to transit trips.

Given     the demand for transit
investments, there are several options
for ensuring that project costs are
contained and that communities are
encouraged to explore cost-effective
transit solutions that would stretch the
Federal funding benefits:

Continuing Strong Oversight of FTA
Grantees. FTA’s oversight program has
come a long way since it was initially
authorized in 1987 to oversee the
implementation of major capital
projects. FTA has institutionalized the
use of project management oversight
contractors (PMOCs) and financial


                                          31
management oversight contractors (FMOCs) to oversee transit projects and to
report to its in-house staff on findings and needed corrective actions. This is
essentially a sound approach that can provide early warnings of cost, schedule,
financing and quality problems. Nonetheless, the quality of PMOC/FMOC
oversight can be improved, particularly in the areas of spot-checking grantee cost
and schedule estimates. In our May 2000 review of the Tren Urbano project we
determined that while the PMOC had raised important schedule and construction
quality issues, it accepted the transit agency’s cost representations without
checking them. Similarly, our April 2001 review of the Seattle Central Link Light
Rail project disclosed that FTA, through its contractors, had not performed due
diligence in reviewing the project’s cost and schedule. After sharing our findings
with FTA, it took corrective action. Overall, the attention FTA is placing on
strengthening the PMOC/FMOC process is positive, and sustaining these
improvements will be important.

Encouraging Communities to be More Cost-Conscious when Evaluating
Alternative Transportation Solutions Before Requesting Federal Funding. With
the demand for transit funds, a greater emphasis on lower cost options may help
expand the benefits of Federal funding for mass transit. FTA can help expand
awareness of alternatives, such as bus rapid transit, to building light or heavy rail
systems that in the right circumstances can be more cost-effective. For example,
bus rapid transit systems cost an average of $680,000 to $13.5 million per mile
and light rail systems average $12.4 million to $118.8 million per mile could
leverage the Federal dollar. Some communities have already implemented lower
cost options, such as the Miami-Dade Transit Agency. The agency expanded its
existing busway system, after determining that a heavy rail system would have
cost 10 times as much to build, and a light rail system would have cost 4 times as
much in comparison with a busway.

FTA has also suggested that reducing the cap on the Federal share of New Starts
funding from 80 percent to 50 percent of projects costs would allow them to fund
more New Starts projects. Under TEA-21, the New Starts program continues to
be the Federal Government’s primary financial support for locally planned and
operated transit guideway investments. Currently, there are over 150 projects in
FTA’s New Starts pipeline that are estimated to cost $42 billion, for which project
sponsors are seeking $20 billion of Federal funds. FTA’s FY 2004 budget
submission requests $1.5 billion. To be able to meet not only current
commitments, but to also fund the most meritorious projects in the New Starts
pipeline, FTA’s proposal would limit the Federal share of New Starts funding to
50 percent of project costs.

While this proposal would, in theory, allow more projects to receive funding, local
planners have indicated it would discourage investment in transit projects.


                                         32
However, a 50 percent New Starts cap would, in part, reflect a funding pattern that
has emerged in the program since 1991. During this period the Federal investment
in New Starts projects averaged 45 percent, even though TEA-21 authorized up to
an 80 percent Federal share. However, we are uncertain about the likely impact of
this proposal. While New Starts money may be limited to 50 percent, it needs to
be made clear where grantees can use Federal transit formula and other Federal
funds to increase the percentage of Federal funding to well above 50 percent.

MARITIME ADMINISTRATION

The Maritime Administration (MARAD) is a new budget account for this
subcommittee. MARAD’s FY 2004 budget request is $219 million, which would
be covered by the General Fund. We find that there are two major cost items in
MARAD's budget.

Title XI Loan Guarantee Program. MARAD’s Title XI Loan Guarantee Program
assists private companies in obtaining financing for ship construction or shipyard
modernization. Currently the program consists of approximately $4.3 billion in
loan guarantees and commitments. Applicants have requested an additional
$5.8 billion. MARAD's budget request for FY 2004 is approximately $4 million
for administration costs. No funds were requested for new loan guarantees.

• After a period of stability, nine loans have defaulted in the last 5 years, totaling
  approximately $490 million, representing about 11 percent of MARAD’s
  $4.3 billion portfolio. Defaults make MARAD responsible for assuming loan
  payments and entitle MARAD to recoup part of these costs through the sale of
  the defaulter's assets. As of January 2003, of the $490 million paid out by
  MARAD due to defaults, it recouped 18 percent of the funds.

• In FY 2002, MARAD borrowed $136 million from the Treasury in order to
  pay almost $330 million in loan guarantees due to loan defaults. (The other
  $194 million came from MARAD’s reserves financed by fees on guaranteed
  loans.) To date, MARAD has repaid $124 million to the Treasury. The
  balance of $12 million is due by 2005.

Because of these loan defaults, we were requested by Senator McCain to review
MARAD's Title XI Loan Guarantee Program. We are close to issuing a final
report. Based on MARAD’s comments to our draft report, the agency is cognizant
of the need for improved administration and oversight of the program.

Ship Disposal. MARAD is legislatively mandated to dispose of all of the
130 obsolete vessels in its inventory by FY 2006. These vessels comprise
merchant and non-military ships in MARAD’s National Defense Reserve Fleet


                                         33
that have deteriorated to a point where they are no longer operational. It has
requested $11.4 million in its FY 2004 budget request for the Ship Disposal
Program. This request, along with the $31.2 million appropriated in FY 2003 for
ship disposal, will provide for the dismantling of approximately 14 to 18 of the
130 obsolete ships in its National Defense Reserve Fleet. Of the amount
appropriated in FY 2003, $20 million was provided by the Department of Defense
(DOD). As a result, MARAD’s progress relies heavily on the level of funding
provided by DOD. However, it is uncertain how much, if any funding; MARAD
will receive for ship disposal from the DOD in FY 2004.

Even if funding were maintained at FY 2003 levels, it would not be sufficient for
the disposal of all of the vessels in MARAD’s inventory by the legislatively
mandated deadline. MARAD’s inventory of obsolete vessels grows by an average
of 11.7 vessels per year, and as shown below, has almost doubled in the last
6 years.


                                             Obsolete Vessels Inventory
                                             West Coast   Gulf Coast     East Coast

                                  140

                                  120
              Number of Vessels




                                  100

                                  80

                                  60

                                  40

                                  20

                                   0
                                        FY 1997      Through April     As of February
                                                         2000               2003


At an average cost of $2.5 million per ship, MARAD needs to find a more cost-
effective solution for disposing of its obsolete vessels. However, the limited
domestic ship disposal market and environmentally hazardous materials involved
make ship disposal a costly undertaking. Further, many of the vessels are costly to
keep afloat and are threatening environmental damage as they deteriorate in place.


FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION

The Federal Motor Carrier Safety Administration’s (FMCSA) FY 2004 budget
request of $447 million, all from the Highway Trust Fund, is a 22 percent increase
over FY 2003. The Department continues to make safety a top priority. By far,
the greatest number of transportation-related fatalities involve motor vehicles.



                                                           34
Highway crashes claim at least 40,000 lives annually, of which more than
5,000 involve motor carriers, i.e. large trucks and passenger buses.

The key points we would like to make today concerning cost drivers in FMCSA’s
budget request are:

Using Border Enforcement Staff Effectively. FMCSA’s FY 2004 budget request
includes $66 million for border inspections and operations. Congress established
requirements in its FY 2002 Appropriations Act to ensure that some very basic
safeguards would be in place when the U.S.-Mexican border opens to long-haul
commercial traffic, which included directing the Office of Inspector General to
verify that FMCSA met the Act’s requirements.

In June 2002, we reported that FMCSA had made substantial progress and had
actions in process and planned to meet the Act’s safety requirements. Safety
requirements were to hire and train enforcement personnel, and establish
inspection facilities and safety procedures at the southern border. We are
performing a follow-up audit as required by the Act to verify that FMCSA
completed the actions in process and planned. We expect to issue the report
shortly.

On November 20, 2002, the Secretary certified that authorizing Mexican carrier
operations throughout the United States does not pose an unacceptable safety risk.
However, allowing Mexican carriers to operate throughout the United States has
been delayed. This delay is the result of a ruling by the United States Court of
Appeals for the Ninth Circuit citing the Department’s failure to conduct in-depth
environmental analyses. We, at present, do not know how ling the delay will be.

Currently, border inspectors perform safety inspections of Mexican commercial
vehicles and drivers operating in the commercial zones along the U.S.-Mexico
border. Until the delay is resolved, safety auditors and safety investigators hired
and trained to perform safety audits and compliance reviews of Mexican long-haul
carriers are available to assist with other safety priority programs such as the new
entrant program for U.S. and Canadian carriers.

Using Certified Private Contractors to Perform Safety Audits for New Entrant
Motor Carriers. Historically, FMCSA receives 40,000 to 50,000 new motor
carrier applications annually. In May 2002, FMCSA established new, stricter
minimum requirements to improve the safety performance of new U.S. and
Canadian motor carriers by ensuring they are knowledgeable about applicable
Federal motor carrier safety standards. These new entrant rules were effective in
January 2003 and require a safety audit within the first 18 months of operation in
order to receive permanent Department of Transportation registration.


                                        35
FMCSA requested $33 million in its FY 2004 budget for the new entrant program
and proposes to use $16 million for Federal resources and $17 million to expand
States’ Motor Carrier Safety Assistance Program grants. The Motor Carrier Safety
Improvement Act of 1999 authorizes the use of properly certified private
contractors to perform safety audits, which could be a cost saving measure.
FMCSA should explore this option as well, with an emphasis on strong Federal
oversight.

Improving the Credibility and Integrity of the Commercial Driver's License
Program. FMCSA’s FY 2004 request includes a $10.8 million increase for the
Commercial Driver's License (CDL) Program, bringing the total CDL Program
budget to $22 million. Our audits and investigations identified the need to
strengthen the oversight of the CDL program and clarify Federal standards for
issuing CDLs.

The subcommittee should consider linking this funding increase to a FMCSA
requirement that States use covert procedures4 to monitor driver examiners. In
May 2002, we reported that the magnitude of fraud in the CDL program warranted
the required use of covert procedures, and FMCSA’s response to our report
indicated an endorsement, and not a requirement, to use covert procedures.

In our May 2002 report, we stated existing Federal standards and State controls
were not sufficient to defend against the alarming threat posed by individuals who
seek to fraudulently obtain CDLs. For example, we found that only 4 of 13 States
we visited had laws requiring applicants to demonstrate that they are citizens or
legally present in the United States. Since 1998, we have conducted over
70 criminal investigations in 12 States involving CDLs. As of January 2003, these
cases have resulted in 81 indictments, 63 convictions, and over $480,000 in fines,
restitution and other monetary recoveries. As a result, truckers have had their
licenses suspended or revoked, or have had to be retested in order to ensure that
they were qualified to drive commercial vehicles. Since 1998, Federal and State
investigations have identified at least 13,000 commercial drivers that needed to be
retested.

Ensuring the Quality of Safety Performance Data. FMCSA is a data-driven
agency and its success in reducing fatalities and injuries depends on the quality of
its safety performance data. In FY 2004, FMCSA requested an information
management program budget of $38 million to maintain and improve its
information systems.


4
    Covert procedures are when the examiner does not know he or she is being monitored.


                                                         36
FMCSA uses a Safety Status Measurement System (SafeStat) to identify high-risk
carriers and target these carriers for compliance reviews. SafeStat scores and
rankings along with safety performance data are posted on an internet web site by
individual carrier. Industry has raised concerns about the validity of the SafeStat
model to identify high-risk carriers and the quality of the safety performance data
used.

We are currently reviewing SafeStat to determine: (1) does the model work,
(2) how good is the data, and (3) how good are the systems for preventing or
correcting bad data. We expect to complete this audit in April 2003.

NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION

The FY 2004 Budget Request includes $665 million for the National Highway
Traffic Safety Administration (NHTSA). Of this amount, $126 million, or
19 percent, comes from the General Fund and $539 million, or 81 percent comes
from the Highway Trust Fund. This request reflects a transfer of $222 million in
existing safety belt and alcohol grant programs from FHWA to NHTSA and an
increase of $18 million for operations and research. Two important issues
NHTSA is focusing on are:

• Following Through on TREAD Act Commitments. The request includes
  $9.35 million for Defects Investigations, including development of a database
  to analyze trends in defect reports from vehicle and equipment manufacturers.
  Successful deployment of this system is key to giving NHTSA the ability to
  identify dangerous defects early. This system, estimated to cost $6 million, is
  currently scheduled for completion in June 2003, a 3-month slip from the
  initial schedule. Manufacturers must begin reporting defect data for entry into
  this new system by August 31, 2003.

• Increasing Safety Belt Use. NHTSA estimates that raising seat belt use to
  85 percent from the present 75 percent would save 4,600 lives annually.
  However, without an increase in the number of states that have primary safety
  belt laws,5 we see no credible basis to forecast increases in seat belt use in
  excess of the recent trend of 1 percentage point per year. The budget request
  devotes $100 million to primary safety belt performance grants. Those grants
  would be available only to states that have either adopted primary laws or
  achieved usage rates that meet or exceed those achieved by states with primary
  laws.


5
    Primary safety belt laws permit law enforcement officers to stop drivers and issue citations solely for not using safety
    belts.


                                                             37
FUNDING TRANSPORTATION SECURITY

DOT’s responsibility for transportation safety and efficiency will inevitably
overlap with the Department of Homeland Security’s (DHS) responsibilities for
transportation security, requiring close interaction between the two Departments to
strike an appropriate balance in implementing, regulating, funding, and overseeing
programs that benefit the traveling public.

One issue that needs to be addressed is whether - to what extent - DOT funds
should be used to assist security initiatives.

• As noted in the earlier discussion on FAA, the greatest part of security upgrade
  costs lies ahead (estimated at $3 billion) and some have already suggested
  DOT's Airport Improvement Program as a source to fund these costs.
  However, these funds are also needed for airport safety and capacity
  requirements.

• Other examples of this pressure on DOT funds for security purposes will likely
  occur in the future. For instance, if DHS issues regulations requiring specific
  security measures within all transit systems - will the transit systems be
  expected to absorb the costs, will the costs be eligible items for DOT transit
  grants, or will DHS have its own grant system to cover these costs?

The questions arising from these examples demonstrate the importance of
deliberately working through these funding issues before requirements are set, and
the importance of this Subcommittee, DOT, and the transportation industry being
active in all development phases of DHS regulations affecting transportation.

Computer Security. A set of security challenges that clearly remains with DOT,
and which is in great need of improvement, is computer security. DOT, has the
3rd largest IT investment among civilian agencies (with a $2.7 billion FY 2004
request) and relies on computers for critical, high-visibility functions such as
controlling air traffic. However, less than one-quarter of DOT's mission-critical
systems have been certified as adequately secured. DOT must fix this material
weakness and improve the failing IT security grade it received from Congress.

Financial Statements and DOT Accounting System. Finally, DOT must be able
to provide this Subcommittee with accurate financial and cost information from
state-of-the-art financial management and cost accounting systems. This year, the
Department attained a clean opinion on its financial statements. However, the
unqualified, or “clean” opinion, did not come without extraordinary effort by DOT
and the auditors. DOT is implementing new systems that should provide DOT
with reliable financial data. In 1997, DOT began to replace its obsolete


                                        38
accounting system. However four of DOT's largest agencies, which account for
about 80 percent of DOT's budget, have not yet transitioned to the new system,
called Delphi. The current timetable calls for these four agencies to transition to
Delphi between March and October 2003 - but the schedule has slipped several
times already.

Mr. Chairman, that concludes my testimony. I would be pleased to take any
questions.




                                        39
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added
here to assist screenreaders.
FAA: Decline in Estimated Trust Fund Revenues Compared to FAA’s Budget
Pg 5 – FAA Table

      Year         FAA’s Budget    April 2001 Trust    February 2003
                                    Fund Estimate        Trust Fund
                                                          Estimate
    FY 1999         $9.8 Billion     $10.4 Billion    Intentionally Left
                                       (Actual              Blank
                                      Collection)
    FY 2000        $10.1 Billion     $9.7 Billion     Intentionally Left
                                       (Actual              Blank
                                      Collection)
    FY 2001        $12.6 billion     $10.4 Billion       $9.1 Billion
                                                           (Actual
                                                         Collection)
    FY 2002        $13.8 Billion     $11.2 Billion       $9.0 Billion
    FY 2003        $13.6 Billion     $11.9 Billion       $9.4 Billion
    FY 2004        $14.0 Billion     $12.6 Billion      $10.2 Billion
    FY 2005        $14.2 Billion     $13.3 Billion      $10.9 Billion
                                        Projected Highway Trust Fund Tax Revenue
                                          Includes Highway and Transit Accounts
                                                    (FY 1999 - FY 2006)
                                                                                       February 2003 President's Budget
Trust Fund Tax Revenue       Actual         April 2001 President's Budget Estimate     Estimate
                             $39.30
FY 1999                      billion        N/A                                        N/A
                             $34.97
FY 2000                      billion        N/A                                        N/A
                             $31.47
FY 2001                      billion        N/A                                        N/A
                             $32.60
FY 2002                      billion        N/A                                        N/A
FY 2003                      N/A            $37.67 billion                             $32.82 billion
FY 2004                      N/A            $38.73 billion                             $34.27 billion
FY 2005                      N/A            $39.82 billion                             $35.34 billion
FY 2006                      N/A            $40.87 billion                             $36.52 billion




Pg. 6 – FHWA Table




Amtrak Operating and Cash Loss: 1992 – 2002

       Operating Loss ($ in millions)                                     Cash Loss ($ in millions)
1992                                                               $712                                               $506
1993                                                               $731                                               $525
1994                                                               $833                                               $578
1995                                                               $808                                               $554
1996                                                               $798                                               $558
1997                                                               $797                                               $549
1998                                                               $860                                               $561
1999                                                               $916                                               $579
2000                                                               $944                                               $561
2001                                                             $1,271                                               $770
2002                                                             $1,258                                               $681
Pg. 23
Amtrak Debt: 1997 - 2002

       Short -TermDebt            Long-TermDebt            Total
1997                       $521                   $1,216           $1,737
1998                       $621                   $1,536           $2,157
1999                       $657                   $1,792           $2,449
2000                       $779                   $2,798           $3,549
2001                       $996                   $3,632           $4,628
2002                     $1,090                   $3,743           $4,833
Pg. 24
              Transit Ridership Growth and TEA-21 Investment
                      (Billions of Trips/Billions of Dollars)
          1996                         1997                        1998
 Transit      Federal        Transit       Federal         Transit     Federal
Ridership Appropriations Ridership Appropriations Ridership Appropriations
   7.9         $3.9            8.3            $4.2            8.7       $4.6


              Transit Ridership Growth and TEA-21 Investment
                        (Billions of Trips/Billions of Dollars)
          1999                           2000                         2001
 Transit      Federal          Transit        Federal         Transit     Federal
Ridership Appropriations Ridership Appropriations Ridership Appropriations
   9.1          $5.3             9.3            $5.8            9.5        $6.3
Source: American Public Transportation Association
Pg. 31
               Obsolete Vessel Inventory

                    Number of Vessels

Location     FY 1997    Through April 2000   As of February 2003

West Coast     23              42                   51

Gulf Coast     10              11                   11

East Coast     33              61                   68
Pg. 34
